TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Statistical Trends in Retirement Plans



                                           August 9, 2010

                               Reference Number: 2010-10-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


STATISTICAL TRENDS IN RETIREMENT                        higher percentage of American workers are
PLANS                                                   participating in employer-sponsored retirement
                                                        plans. Participation has doubled in the last
                                                        3 decades and has significantly outpaced
Highlights                                              population growth among working age
                                                        Americans. For example, from July 1977 to
Final Report issued on August 9, 2010                   July 2007, the working age population
                                                        (i.e., people between the age of 18 and
Highlights of Reference Number: 2010-10-097             64 years) grew 44.8 percent; however,
to the Internal Revenue Service Commissioner            employer-sponsored retirement plan
for the Tax Exempt and Government Entities              participation increased 102.1 percent between
Division.                                               Calendar Years 1977 and 2007. Also, the type
                                                        of retirement plans being offered has changed
IMPACT ON TAXPAYERS                                     drastically from those where the benefits are
                                                        based on earnings and years of service to plans
American workers face a number of risks in              where benefits are based on employee
both accumulating and preserving retirement             contributions, any employer contributions, and
benefits. While the number of individuals               investment earnings and declines.
participating in and the amount invested in
employer-sponsored retirement plans has                 Between Calendar Years 1977 and 2007, the
increased substantially over the last 30 years,         value of retirement plan assets grew
retirees may not have enough income from                substantially. This is good news, as the
retirement plans alone to cover their financial         increased value of plan assets generally
needs during retirement, and more individuals           equates to additional income upon retirement.
are withdrawing retirement savings before               However, it is also clear that many retirees will
retirement. With longer life expectancy, both           continue to rely on Social Security and other
taxpayers’ investment decisions (including              forms of income for retirement and may run the
retirement plan investments) and changes in             risk of outliving their retirement assets. In
the economy will continue to play important             addition, more individuals are withdrawing
roles in ensuring a financially secure retirement.      retirement savings before retirement, which
                                                        reduces the amount of income available for
WHY TIGTA DID THE AUDIT                                 future retirement.
The overall objective of this review was to             While this report provides some positive
identify retirement plan trends based on a wide         trends and some concerning trends, much of
range of statistical indicators. The data cover         what is presented may change substantially
the vast majority of employer-sponsored                 as data become available for Calendar
retirement plans, but may not include some              Years 2008, 2009, and 2010 when the
retirement plans for churches, government               country experienced a significant economic
agencies, and some smaller employers. This              downturn and the beginnings of a recovery.
audit was conducted as part of the TIGTA Fiscal         In addition, legislative changes being
Year 2010 Annual Audit Plan and addresses the           considered could increase participation in
major management challenge of Tax                       retirement plans and provide incentives for
Compliance Initiatives.                                 younger workers to participate in the future.
WHAT TIGTA FOUND                                        WHAT TIGTA RECOMMENDED
From Calendar Years 1977 to 2007, the number            TIGTA made no recommendations in this report.
of options available for workers to save for            Tax Exempt and Government Entities Division
retirement through employer-sponsored and               management reviewed the report before it was
individual retirement plans steadily increased. In      issued and offered clarifying comments.
addition, while there is no conclusive data to
show the exact number of American workers
who are saving for retirement, it is clear that a
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 9, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Statistical Trends in Retirement Plans
                             (Audit # 201010009)

 This report presents the results of our review to identify retirement plan trends based on a wide
 range of statistical indicators. This audit was conducted as part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 There are no recommendations in this report. Tax Exempt and Government Entities Division
 management reviewed the report before it was issued and offered clarifying comments and
 suggestions, which have been taken into account.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report results. Please contact me at (202) 622-6510 if you have questions or Nancy A.
 Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                            Statistical Trends in Retirement Plans




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Retirement Plan Participation Has Increased, but Responsibility for
          Funding Retirement Plans Has Shifted to Individuals..................................Page 6
          American Workers May Continue to Need Additional Sources of
          Income to Supplement Retirement Plan Income ..........................................Page 9
          Underfunded or Terminated Retirement Plans and Early Spending of
          Retirement Savings Jeopardize Workers’ Ability to Have
          Sufficient Retirement Income .......................................................................Page 12
          Many Trends Presented in This Report May Change Significantly
          in the Near Future .........................................................................................Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Selected Information Regarding Federal Government
          Retirement Plans ...........................................................................................Page 20
          Appendix V – Detailed Charts of Statistical Information.............................Page 24
               Statistical Trends in Retirement Plans




                    Abbreviations

CY       Calendar Year
FY       Fiscal Year
IRA      Individual Retirement Arrangement
IRS      Internal Revenue Service
PBGC     Pension Benefit Guaranty Corporation
PY       Processing Year
SIMPLE   Savings Incentive Match Plan for Employees

TY       Tax Year
                                       Statistical Trends in Retirement Plans




                                              Background

Millions of American workers put aside money in the hopes
of one day enjoying their retirement years. Workers who                              Individuals can save for
have saved for retirement are more likely than nonsavers to                         retirement through either
expect major retirement income from personal savings and                                  an individual or
                                                                                       employer-sponsored
retirement plans.
                                                                                         retirement plan.
Retirement plans can be divided into two broad categories:
individual and employer-sponsored. Individual retirement
plans are generally established through a private financial institution, whereas
employer-sponsored plans are usually established and managed by a plan sponsor. 1
The Internal Revenue Code provides preferential income tax treatment to individuals who save
for retirement. These options are becoming an increasingly important way for taxpayers to
rollover savings 2 from employer-sponsored retirement plans. Figure 1 shows some of the
features of the different options that are available for individuals to save for retirement.
             Figure 1: Types of Individual Retirement Plans and Their Features

     Individual Retirement Plans                                       Key Features
          Traditional Individual      Contributions are not subject to tax, and investment earnings accumulate
     Retirement Arrangement (IRA)     tax-deferred. Taxes are paid in the year the retirement benefit is received.

               Roth IRA               Taxes are paid on contributions while earnings from savings and
                                      investments grow tax-free. Withdrawals (subject to certain rules) are not
                                      taxed at all.
      Simplified Employee Pension     Employers of any size are allowed to make voluntary tax deductible
                                      contributions to traditional IRAs for themselves and their employees.

      Savings Incentive Match Plan    Small employers are allowed to either match participating employees’
        for Employees (SIMPLE)        contributions or contribute a fixed percentage of all eligible employees’ pay.
    Source: Individual Retirement Arrangements (IRAs) (Publication 590) and Retirement Plans for Small Business
    (SEP, SIMPLE, and Qualified Plans) (Publication 560).



1
  A plan sponsor is a designated party, usually an employer, who sets up a retirement plan for the benefit of an
organization’s employees. The organization may be a corporation, labor union, government agency, or nonprofit
group.
2
  In general, a rollover is a tax-free distribution of proceeds from one retirement plan that individuals transfer to
another plan, allowing taxpayers to continue their savings in the event of a job change. This preserves taxpayers’
benefits and does not cause any tax consequences if done in a timely manner.
                                                                                                                Page 1
                                      Statistical Trends in Retirement Plans




For employer-sponsored plans, the plan sponsor is responsible for determining membership
parameters, investment choices, and in some cases, providing contribution payments in the form
of cash and/or stock. These plans fall into two major categories:
      •   Defined benefit plans are traditionally set up so benefits are calculated by a set formula.
          Upon retirement, workers typically receive benefits based on years worked for an
          employer and earnings in years prior to retirement. Under this type of plan, the employer
          is generally responsible for making all or a portion of the contributions to fund the
          promised benefits.
      •   Defined contribution plans enable workers to contribute to individual accounts which
          are tax-advantaged in that contributions are typically excluded from current taxable
          income, and earnings on balances grow tax-deferred until they are withdrawn. An
          employer may also make contributions, either by matching employee’s contributions up
          to plan or legal limits, or on a noncontingent basis.
Figure 2 shows several types of defined contribution plans based on various sections of the
Internal Revenue Code.
               Figure 2: Examples of Defined Contribution Retirement Plans

       Internal
     Revenue Code
        Section                                              Description

          401(k)      Plan where employees have individual accounts to which the employee, employer, or both
                      make contributions. Benefits are based on contributions and investment returns (gains
                      and losses) on the accounts.

          403(b)      Plan designed for public education and tax-exempt entities. Both the plan sponsor and
                      employees can make pre-tax contributions.

          457(b)      Plan normally open to all employees working for a State or local government. Both the
                      plan sponsor and participants are permitted to make pre-tax contributions.

    Source: Retirement Savings: Better Information and Sponsor Guidance Could Improve Oversight and Reduce
    Fees for Participants (GAO-09-641, dated September 2009).

Most employer-sponsored plans in the private sector are covered by the Employee Retirement
Income Security Act of 1974. 3 Among other things, the Act provides protections for participants
and beneficiaries in employee benefit plans. Federal Government organizations responsible for
overseeing Employee Retirement Income Security Act provisions include:


3
 Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
29 U.S.C., and 42 U.S.C.).
                                                                                                            Page 2
                                     Statistical Trends in Retirement Plans




    •   The Department of Labor Employee Benefits Security Administration – This
        organization administers and enforces provisions of the Employee Retirement Income
        Security Act. This includes providing assistance to employers, plan service providers,
        and others to help them comply with the Act, as well as developing and regulating plan
        responsibilities and standards for employers and/or plan sponsors.
    •   The Internal Revenue Service (IRS) Employee Plans function – This function ensures
        employer-sponsored retirement plans comply with all Internal Revenue Code provisions
        by examining Annual Returns/Reports of Employee Benefit Plan (Form 5500 series) and
        related returns. The Employee Plans function is also responsible for approving the
        written form of plans.
    •   The Pension Benefit Guaranty Corporation (PBGC) – This organization was
        established by the Employee Retirement Income Security Act to ensure participants in
        defined benefit plans receive a minimum level of benefits should their retirement plan be
        terminated and unable to pay promised benefits.
In addition to the private sector, retirement plans for Federal, State, and local government
employees encompass a significant number of plans and participants. At the end of
Fiscal Year (FY) 2007, retirement plans for Federal employees included more than 8.8 million
individuals and held nearly $928 billion in assets. 4 In addition to Federal retirement plans, at the
end of FY 2007 5 there were 2,547 retirement plans for State and local governments. These plans
held nearly $3.4 trillion in assets and included nearly 18.6 million employees.
The information used in this review originated from several sources which are subsequently
described. Each of the sources gathered, processed, and retained data in different ways to meet
their organizational objectives. 6 Because of this, 2007 (plan year, 7 fiscal year, 8 processing year, 9
and tax year 10 ) is the latest data that we were able to obtain complete information from all
sources. Therefore, the results presented in the report do not reflect the significant economic
downturn experienced in Calendar Year (CY) 2008 and portions of CY 2009, in which many


4
  See Appendix IV for more information about Federal Government retirement plans.
5
  FY 2007 for these plans encompasses the period July 1, 2006, through June 30, 2007.
6
  The various sources reported data in different year formats (fiscal years, plan years, processing years, and tax
years).
7
  The Department of Labor defines a plan year as the calendar year, or an alternative 12-month period, that a
retirement plan uses for plan administration. However, the plan year can be shorter in certain circumstances
(e.g., the first year a retirement plan is in operation).
8
  A 12-month consecutive period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30. The Census Bureau collects information
on a fiscal year that begins on July 1 and ends on June 30.
9
  The calendar year in which the return or document is processed by the IRS.
10
   The 12-month period for which tax is calculated. For most individual taxpayers, the tax year is synonymous with
the calendar year.
                                                                                                           Page 3
                                      Statistical Trends in Retirement Plans




investment portfolios experienced significant losses, or reflect any recovery that portfolios may
have experienced in the latter portion of CYs 2009 and 2010.
The data for this project included the following sources:
     •   Information Returns Received by the IRS: These include data submitted by third parties,
         such as IRA Contribution Information (Form 5498) and Wage and Tax Statements
         (Form W-2).
     •   PBGC Data Books: Annually, the PBGC publishes the Pension Insurance Data Book
         with detailed statistics about its programs.
     •   Census Bureau Statistics: The Census Bureau annually estimates residential population
         within selected demographics including selected age groups and gender.
     •   Department of Labor: The Department of Labor annually prepares a Pension Plan
         Bulletin which includes historical information dating back to Plan Year (hereafter
         referred to as CY) 11 1975. When using the Bulletin, our analyses typically started with
         data from CY 1977 and were analyzed in 5-year increments until CY 2007.
This review includes data from the vast majority of employer-sponsored retirement plans; 12
however, data originating from the Department of Labor and the PBGC may not include some
retirement plans that are not required to file a Form 5500 such as churches, government agencies,
and some smaller employers that are required to file only an Annual Return of One-Participant
(Owners and Their Spouses) Retirement Plan (Form 5500-EZ) with the IRS.
This review was performed at the Tax Exempt and Government Entities Division Employee
Plans Examination function in Baltimore, Maryland, during the period December 2009 through
June 2010. Because we did not have access to source data or systems producing the data, we did
not independently verify data we obtained from non-IRS sources. With this exception, we
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.



11
   According to the Department of Labor, 80 percent of retirement plans file annual returns on a calendar-year basis.
However, 20 percent of retirement plans use a fiscal year basis for filing. To simplify our presentation for the
purposes of this report, we refer to Department of Labor data as being on a calendar-year basis.
12
   In this report, the number of employees in retirement plans is based on active participants who are employed
currently, covered by a plan, and not yet retired.
                                                                                                             Page 4
                                Statistical Trends in Retirement Plans




                                Results of Review

From CYs 1977 through 2007, the number of options available for workers to save for retirement
through employer-sponsored and individual retirement plans steadily increased. In addition,
while there is no conclusive data to show the exact number of American workers who are or are
not saving for retirement, it is clear that a higher percentage of American workers are
participating in employer-sponsored retirement plans. Participation has doubled in the last
3 decades and has significantly outpaced population growth among working age Americans.
However, the type of retirement plans offered by employers have changed drastically from those
where the benefits are based on earnings and years of service to plans where benefits are based
on employee contributions, any employer contributions, and investment earnings and declines.
In addition to employer-sponsored retirement plans, participation in individual retirement plans
has remained steady in recent years, but the amount being contributed has increased steadily.
Due to the increased participation in retirement plans and significant increases in the stock
market between CYs 1977 and 2007, the value of retirement plan assets grew substantially
during that period. This is good news for those saving for retirement, as the increased value of
plan assets generally equates to additional income upon retirement. However, for
employer-sponsored defined benefit plans, the average value of plan assets per individual was
$62,600, a very modest amount that may not provide sufficient income for taxpayers throughout
their retirement years. With longer life expectancy, both taxpayers’ investment decisions and
changes in the economy will continue to play important roles in ensuring a financially secure
retirement.
In addition to concerns over the amount being saved through retirement plans, the dollar value of
retirement plans that were terminated and taken over by the PBGC since FY 2007 has risen
drastically, and more individuals are withdrawing retirement savings before retirement.
However, the number of plans struggling with funding future retirement benefits decreased
between FYs 2004 and 2007, which is a positive indicator.
While this report provides some positive trends and some concerning trends, it is important to
note that much of what we are presenting may change substantially as data become available for
CYs 2008, 2009, and 2010 when the country experienced a significant economic downturn and
the beginnings of a recovery. In addition, legislative changes being considered at the end of our
fieldwork could increase participation in retirement plans and provide incentives for younger
workers to participate in the future.




                                                                                           Page 5
                                    Statistical Trends in Retirement Plans




Retirement Plan Participation Has Increased, but Responsibility for
Funding Retirement Plans Has Shifted to Individuals
Retirement planning becomes more urgent as workers get older. In an April 2010 response to an
inquiry from the Departments of the Treasury and Labor, the Government Accountability Office
noted Americans are living longer. For example, couples both aged 62 years have a 47 percent
chance that at least 1 of them will live to be 90 years old. 13 Retirement plans can provide a
significant source of income for retirees. According to the Social Security Administration,
28.3 percent of income for those aged 65 years and older in CY 2008 was from retirement
plans. 14 However, according to the Survey of Consumer Finances, about 39 percent of
households at or nearing retirement did not have a formal retirement plan in CY 2007.
Based on available data, it is difficult to tell exactly how many Americans are saving for
retirement through formal retirement plans. For example, some retirement plans such as church
plans and Government plans are not required to file information reports. Therefore, consistent
data are not available regarding participation on certain types of plans. In addition, some
individuals may be participating in more than one type of retirement plan. 15 As such, figures
regarding different retirement plans cannot be combined without double-counting.
Even with these limitations, it is clear that more Americans are participating in
employer-sponsored retirement plans. However, in the last 30 years, the responsibility for
managing and funding retirement plans has shifted from employers to individuals. In addition, a
smaller, but stable, percentage of working age Americans are saving for retirement through
individual retirement plans. The following sections of this report contain data on a number of
noteworthy trends regarding retirement plan participation and investments of American workers
and how they have changed over the past 30 years.

The number of active participants in employer-sponsored retirement plans grew
significantly from CY 1977 to CY 2007
Employer-sponsored retirement plan participation has significantly outpaced the growth in the
working age population over the past 30 years. Between July 1977 and July 2007, the working
age population (i.e., people between the age of 18 and 64 years) grew 44.8 percent (from
130.9 million to 189.5 million). However, employer-sponsored retirement plan participation
grew 102.1 percent (from 42.7 million to 86.3 million) between CYs 1977 and 2007. This rate
of growth indicates that working Americans are increasingly participating in retirement plans
sponsored by their employers.


13
   Retirement Income: Challenges for Ensuring Income throughout Retirement (GAO-10-632R, dated April 2010).
14
   Income of the Population 55 and Older, 2008 (SSA Publication No.13-11871, dated April 2010).
15
   For example, taxpayers participating in an employer-sponsored plan may also contribute to a traditional IRA
through a financial institution.
                                                                                                       Page 6
                                                          Statistical Trends in Retirement Plans




The growth of participation in employer-sponsored retirement plans is directly correlated with
the explosion of workers who participated in defined contribution plans (e.g. 401(k) plans) over
the last 30 years. Between CYs 1977 and 2007, the number of participants in defined
contribution plans increased 358 percent (from 14.6 million to 66.9 million workers) compared
to a 31 percent decrease in defined benefit plan (commonly known as pension plans) participants
(from 28.1 million workers to 19.4 million workers). Therefore, the increase in overall
employer-sponsored retirement plan participation occurred despite a reduction in defined benefit
plan participation. Figure 3 shows the overall growth in employer-sponsored retirement plan
participation between CYs 1977 and 2007, as well as the overall increase in defined contribution
plans and overall decrease in defined benefit plans.
                    Figure 3: Number of Active Participants in Employer-Sponsored Retirement
                              Plans (in Thousands) by Type of Plan (CYs 1977–2007)
                                    100,000
                                                                                                                      86,280
  Active Participants (thousands)




                                                                                                            74,501
                                     80,000
                                                                                                70,270
                                                                      63,280     63,898

                                     60,000
                                                       53,099                                                         66,873
                                              42,658
                                                                                                            52,868
                                                                      34,853                     47,651
                                     40,000
                                                       29,678                    38,676

                                              28,058                   28,427
                                     20,000
                                                       23,421                     25,222
                                                                                                  22,619     21,633
                                                                                                                      19,407
                                              14,600
                                         0
                                              1977     1982           1987        1992           1997       2002      2007

                                                                       Calendar Year
                                                        Defined Benefit Plan    Defined Contribution Plan   Total


 Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension Plan
 Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

See Appendix V, Figures 1 and 2, for trend information on the number of employer-sponsored
retirement plans over the last 30 years.

Employer-sponsored retirement plans have drastically shifted from pension plans
where benefit amounts are pre-determined to defined contribution plans where
benefit amounts are dependent on assets in employees’ accounts
Since the late 1970s, there has been a major shift in the way that employers are sponsoring
retirement plans. As shown in Figure 4, in CY 1977, nearly two-thirds (65.8 percent) of all
                                                                                                                         Page 7
                                                            Statistical Trends in Retirement Plans




workers participating in an employer-sponsored retirement plan were in a defined benefit plan
(management of plan assets and payment of benefits is the responsibility of the employer), while
the other one-third (34.2 percent) were in a defined contribution plan (management of assets and
payment of benefits is partially or fully the responsibility of the employee). By CY 1997, the
percentages had completely reversed as more than two-thirds (67.8 percent) of all workers were
in a defined contribution plan and only about one-third (32.2 percent) were in a defined benefit
plan. Figure 4 shows that the shift to defined contribution plans continued through CY 2007,
when more than three quarters (77.5 percent) of all participants were involved in defined
contribution plans.
                                         Figure 4: Percentage of Active Participants in Employer-Sponsored
                                                  Retirement Plans by Type of Plan (CYs 1977–2007)

                                          100%
     Percentage of Active Participants




                                                                                                                        77.5%
                                                                                                                71.0%
                                           75%
                                                 65.8%                                            67.8%
                                                                                    60.5%
                                                           55.9%        55.1%

                                           50%

                                                           44.1%        44.9%
                                                                                    39.5%
                                                 34.2%                                           32.2%
                                           25%
                                                                                                                29.0%
                                                                                                                        22.5%


                                           0%
                                                 1977      1982         1987        1992         1997           2002    2007

                                                                          Calendar Year

                                                             Defined Benefit Plan   Defined Contribution Plan


 Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension Plan
 Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

See Appendix V, Figures 1 and 2, for trend information on the number of employer-sponsored
retirement plans over the last 30 years.

The percentage of working age Americans saving for retirement through
individual retirement plans remained stable between Tax Years (TY) 2004 and
2007
All workers have at least one method available to save for retirement, and many workers have a
wide array of options for funding their retirement. These options may include using an
employer-sponsored retirement plan and/or saving on their own through an IRA. We do not

                                                                                                                           Page 8
                                      Statistical Trends in Retirement Plans




have access to individual retirement plan information prior to TY 2004; 16 however, it is clear that
a significant number of Americans are using individual retirement plans to save for retirement.
For TYs 2004 through 2007, an average of about 15 million working-age Americans save for
retirement through individual retirement plans. This equates to about 8 percent of the working
age population. As shown in Figure 5, the number and percentage of working age Americans
participating in individual retirement plans remained fairly stable between TYs 2004 and 2007.
     Figure 5: Number and Percentage of Working Age Americans Participating in
                   Individual Retirement Plans (TYs 2004–2007)
                                            Number of Individuals               Percentage of Working Age
                                           Participating in Individual           Americans Participating in
                 TY                            Retirement Plans                 Individual Retirement Plans

                2004                               14.88 million                            8.1%
                2005                               15.08 million                            8.1%
                2006                               15.11 million                            8.1%
                2007                               15.15 million                            8.0%

Source: Form 5498 submitted by third-party financial institutions to the IRS.

See Appendix V, Figure 3, for trend information on the number of participants in individual
retirement plans for TYs 2004 through 2007.

American Workers May Continue to Need Additional Sources of
Income to Supplement Retirement Plan Income
In April 2010 testimony 17 before the United States Senate Special Committee on Aging, the
Government Accountability Office noted longer life expectancies and a declining economy
created a risk that aging taxpayers could outlive their assets. For example, in CY 2007, before
the recent recession, one-half of the households with someone aged 55 to 64 years had financial
assets of $72,400 or less, not much more than the median annual working income of $54,600 in
the same year.
Our analysis of retirement plan trends revealed similar concerns but also found that the value of
employer-sponsored retirement plans has increased greatly over the last 30 years, and the
average amount being contributed to individual retirement accounts has increased steadily over
the last several years for which we have data. However, just like concerns expressed in the
Government Accountability Office’s recent testimony, we noted that the average value of plan

16
   To complete this analysis, we used data from TY 2004 Forms 5498, which was the earliest year that information
was available.
17
   Retirement Income: Challenges for Ensuring Income throughout Retirement (GAO-10-632R, dated April 2010).
                                                                                                         Page 9
                                Statistical Trends in Retirement Plans




assets for each employee in employer-sponsored retirement plans is not significantly different
than the median annual working income in CY 2007. With individuals living longer, it is clear
that many retirees will continue to rely on Social Security and other forms of income for
retirement and may run the risk of outliving their retirement assets. In addition, future retirement
income can vary widely based on investment decisions (including retirement plan investments)
and gains and/or declines in the stock market.

The value of investments in employer-sponsored retirement plans increased
substantially between CYs 1977 and 2007; however, retirement income is subject
to stock market fluctuations
The value of employer-sponsored retirement plans is comprised of contributions to the plan plus
earnings received from investments less any disbursements for costs to administer the plan and
any disbursements made to plan participants. Between CYs 1977 and 2007, the total value of
employer-sponsored retirement plans grew substantially from approximately $325 billion in
CY 1977 to more than $6 trillion in CY 2007. Much of the growth in the value of
employer-sponsored retirement plans can be attributed to increased participation of workers
between the ages of 18 and 64 years mentioned earlier in this report, as well as significant returns
from investments during the 30-year period. This is good news for those saving for retirement,
as the increased value of plan assets generally equates to additional income upon retirement.
The value of retirement plan assets per plan participant generally increased steadily between
CYs 1977 and 2007, with the exception of one period between CYs 1997 and 2002 where the
value per participant declined. While we cannot draw a definite conclusion, the decline between
CYs 1997 and 2002 was more than likely caused by a significant downturn in the information
technology sector of the economy during this period.
Figure 6 shows the average value of assets per participant from CYs 1977 through 2007 for both
defined benefit and defined contribution plans. At the end of CY 2007, defined benefit plans had
an average of almost $63,000 in assets per participant while defined contribution plan
participants had an average value of about $42,000. While the increasing value in retirement
plan assets between CYs 1977 and 2007 is promising, individuals will most likely need other
sources of income, such as Social Security, over the course of their retirement years. The
widening gap between defined benefit plan assets and defined contribution plan assets is most
likely caused by the shift in retirement plan participants from fewer defined benefit plans to
significantly more defined contribution plans. Another factor is that defined benefit plan
participants tend to be older on average than participants in defined contribution plans, which has
allowed defined benefit plan investments to grow for a longer period of time.




                                                                                            Page 10
                                                                       Statistical Trends in Retirement Plans




                                                Figure 6: Employer-Sponsored Retirement Plan Assets
                                                   per Participant by Type of Plan (CYs 1977–2007)

                                                 $80,000
             Assets per Participant (dollars)




                                                 $60,000




                                                 $40,000




                                                 $20,000




                                                     $0
                                                           Calendar Year Calendar Year Calendar Year Calendar Year Calendar Year Calendar Year Calendar Year
                                                               1977          1982          1987          1992          1997          2002          2007

        Defined Benefit Plan                                  $6,675       $14,325        $21,955       $29,010       $42,969       $39,585       $62,597
        Defined Contribution Plan                             $6,002        $9,572        $13,726       $22,351       $33,304       $29,898       $42,218


 Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension Plan
 Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

See Appendix V, Figures 4, 5, and 6, for trend information on the total amount of
employer-sponsored retirement plan assets as well as the total amount of contributions and
distributions for employer-sponsored assets.

Taxpayers steadily increased contributions to individual retirement plans
As shown in Figure 7, using available data from TYs 2004 through 2007, we determined that the
amount of annual contributions to different individual retirement plans generally increased
during this 4-year period. Individuals who participated in Simplified Employee Pension IRAs
consistently saved more than individuals using other types of individual retirement savings plans.
There could be several reasons for the gap but it is probably attributed to the fact that the tax
code permits taxpayers eligible for Simplified Employee Pension IRAs to make larger
contributions than other individual retirement plan options.18 In addition, many of the people
choosing the other individual retirement savings options may also be eligible to participate in
other employer-sponsored plans.



18
  For TY 2009, the maximum contribution an individual could make to a traditional or Roth IRA was $5,000. The
maximum contribution an individual could make to a SIMPLE was $11,500. The maximum contribution for a
Simplified Employee Pension IRA was the lesser of 25 percent of the employee’s compensation or $49,000.
                                                                                                                                                   Page 11
                                        Statistical Trends in Retirement Plans




Figure 7: Average Annual Individual Retirement Plan Contributions per Taxpayer
                     (Processing Years (PY) 2004–2007)
                     $12,000




                       $8,000
  Taxpayers' Average
   IRA Contribution
       (dollars)

                       $4,000




                          $0
                                 Processing Year 2004   Processing Year 2005   Processing Year 2006   Processing Year 2007
   Traditional IRA                      $2,532                 $3,101                 $3,260                 $3,306
   Roth IRA                             $2,249                 $2,762                 $2,803                 $2,789
   Simplified Employee Pension          $8,419                 $9,339                 $9,775                $10,274
   SIMPLE Plan                          $3,957                 $4,450                 $4,394                 $4,577


Source: Forms 5498 submitted by third-party financial institutions to the IRS for PYs 2004 through 2007.

Underfunded or Terminated Retirement Plans and Early Spending of
Retirement Savings Jeopardize Workers’ Ability to Have Sufficient
Retirement Income
The Government Accountability Office reported that couples who are both aged 62 years have a
47 percent chance that at least 1 of them will live to their 90th birthday. When retirement plans
are terminated or underfunded and/or retirement savings are spent early, Americans run the risk
of not having sufficient income at their disposal throughout their retirement. While the number
of underfunded retirement plans has decreased in recent years, the dollar value of retirement
plans taken over by the PBGC and the number of individuals dipping into their retirement
savings early has increased.
Underfunded retirement plans refer to retirement plans that are in jeopardy of not being able to
pay expected benefits to retirees in the future. Employers or retirement plan administrators of
defined benefit plans notify the IRS and the Department of Labor yearly when they are unable to
pay the necessary amount to meet their funding obligation for that year. The number of reported
funding deficiencies dropped by 10.7 percent from FY 2004 to 2007. The dollar amount of
reported funding deficiencies dropped by 64.5 percent during the same time period.


                                                                                                                      Page 12
                                      Statistical Trends in Retirement Plans




While the number of underfunded plans decreased between FYs 2004 and 2007, the dollar
amount of retirement plans taken over by the PBGC has been increasing rapidly. In
October 2009 Senate testimony, 19 the Government Accountability Office noted the rapid increase
in assets and liabilities the PBGC took over for defined benefit plans. 20 Through the second
quarter of FY 2009, the PBGC’s deficit 21 was $33 billion, which was triple the $11 billion deficit
at the end of FY 2008. However, just 10 years earlier the PBGC’s deficit was $39 million,
.1 percent of the current deficit.
The large increase in this deficit is the result of the PBGC assuming responsibility for several
very large defined benefit plans. For example, in August 2009, the PBGC assumed
responsibility for six plans of one employer. Collectively, these plans covered more than
70,000 employees and were underfunded by $7 billion, of which the PBGC was responsible for
$6.7 billion, putting further financial strain on the PBGC’s rapidly increasing deficit.
Another way that retirement plan savings can be put in jeopardy is if funds invested for
retirement are withdrawn early. This is known as leakage (hereafter referred to as early
withdrawal). According to the Census Bureau’s Survey of Income and Program Participation
studies in CYs 1998, 2003, and 2006, approximately 15 percent of participants in
employer-sponsored defined contribution plans made early withdrawals 22 from their retirement
plans in each of these 3 years.
Individual retirement plans can also experience early withdrawals that will reduce the amount of
income available for future retirement and result in additional tax. In general, taxpayers making
early withdrawals must file Additional Taxes on Qualified Plans (Including IRAs) and Other
Tax-Favored Accounts (Form 5329) to report taxes due. For tax returns that were processed
during PYs 2006 through 2009, we obtained data for the total number of taxpayers who reported
additional tax as well as the aggregate amount of additional tax due.23 Figure 8 shows that the
number of taxpayers withdrawing funds early from retirement plans is steadily increasing. The
IRS processed 900,000 more Forms 5329 in PY 2009 than in PY 2006 (an increase of
18 percent). This equates to an associated $1.25 billion (32 percent) increase in total additional
tax and loss of income on these funds had they not been withdrawn.

19
   Pension Benefit Guaranty Corporation: Workers and Retirees Experience Delays and Uncertainty When
Underfunded Plans are Terminated (GAO-10-181T, dated October 2009).
20
   Most participants of terminated plans are entitled to receive the full amount of benefits they earned under their
plans, except that they receive retirement benefits from the PBGC instead of their former employer. In such cases,
the calculation of an estimated benefit is straightforward. However, some participants may have their benefits
reduced to comply with certain limits specified under the Employee Retirement Income Security Act and related
regulations.
21
   The PBGC’s deficit is the resulting difference between its assets and liabilities.
22
   A withdrawal is considered to be early if made prior to age 59½.
23
   We were unable to quantify the total dollar amount of early withdrawals as that data are not captured when
processing Forms 5329. However, the total additional tax is based on the amount of the early withdrawal and the
individuals’ personal income tax brackets.
                                                                                                            Page 13
                                  Statistical Trends in Retirement Plans




           Figure 8: Early Withdrawals From Individual Retirement Plans
                                 (PYs 2006–2009)
               PY             Taxpayers        Total Additional             Average Tax per
                                                     Tax                       Taxpayer
              2006            4.86 million       $3.97 billion                   $816
              2007            5.10 million       $4.40 billion                   $863
              2008            5.53 million       $5.10 billion                   $922
              2009            5.75 million       $5.22 billion                   $907
       Source: Forms 5329 submitted to the IRS for PYs 2006 through 2009.

As workers approach retirement age, the need for retirement savings becomes more critical
because any early withdrawals made in the years immediately preceding retirement provides less
time for workers to makeup for the loss in retirement savings. While Social Security is the
largest source of retirement income for households with someone aged 65 years or older, other
financial assets such as employer-sponsored retirement plan benefits, individual retirement plan
savings, and nonfinancial assets such as home equity are important sources of retirement income.
Our analysis revealed that the average age for taxpayers making early withdrawals was 42 years,
and the age group “41 to 50 years old” accounted for the largest amount of total additional tax
each year due to early withdrawals. The second age group most likely to withdraw funds early
was “51 to 60 years old.” This is concerning because these groups have the least amount of time
to repay savings prior to retirement. Figure 9 includes a breakdown of the total additional taxes
due by taxpayers’ age. As shown in Figure 9, the “41 to 50 years old” group paid nearly
$2 billion in additional taxes in PY 2009.




                                                                                              Page 14
                                                                    Statistical Trends in Retirement Plans




           Figure 9: Total Additional Taxes Due Based on Early Withdrawal of Individual
                      Retirement Plan Funds by Age Group (PYs 2006–2009)
      Total Additional Tax - Early Withdrawals




                                                 $2,000



                                                 $1,500
                     (millions)




                                                 $1,000



                                                  $500



                                                    $0
                                                          2006               2007                       2008            2009
                                                                                      Processing Year

                                                            Ages 21-30   Ages 31-40        Ages 41-50      Ages 51-60


 Source: Comparison of data from Forms 5329 processed during PYs 2006 through 2009 to taxpayer
 information on the IRS database of individual taxpayers’ accounts.

See Appendix V, Figure 7, for a more detailed breakdown of data from taxpayers reporting an
early withdrawal from retirement savings.

Many Trends Presented in This Report May Change Significantly in
the Near Future
During the 2 years following the period of this review, there was a significant downturn in the
economy. The recession, which officially began in December 2007, has taken a heavy toll on
many taxpayers’ retirement savings. For example, a survey conducted in February and
March 2009241 showed that 37 percent of full-time employed adults of all ages stated they have
thought in the past year about postponing their eventual retirement. This proportion swells to
52 percent among full-time workers aged 50 to 64 years, as well as 16 percent that responded
that they never expect to stop working.
In addition, a September 2009 economic survey 25 by the Census Bureau showed the recession
had plunged 2.6 million more Americans into poverty and eliminated household income gains


241
   Social and Demographic Trends: Most Middle-Aged Adults Are Rethinking Retirement Plans (Pew Research
Center, dated May 2009).
25
   Income, Poverty, and Health Insurance Coverage in the United States (P60-236(RV), dated September 2009).
                                                                                                                               Page 15
                                    Statistical Trends in Retirement Plans




from an entire decade. However, there is evidence of a reversal in the recent downward
economic trends. In April 2010 testimony263 before Congress, the Chairman of the Federal
Reserve Bank forecasted a moderate economic recovery. The Chairman added, however, that if
the pace of recovery is moderate (as expected), it will require a significant amount of time to
restore the 8.5 million jobs lost over the past 2 years.
There were several other legislative changes being considered at the end of our fieldwork, which
if enacted, will significantly affect some of the trends presented in this report. For example,
Congress has introduced legislation that would create a mandatory retirement system of
automatic payroll deduction for individual retirement plans. Under this legislation, employers
with 10 or more employees who have been in business for 2 years and offer no retirement plan
would be required to offer payroll deduction IRAs. Other legislation being discussed includes a
tax credit being offered to young workers who contribute to retirement plans.
Given the instability in investments in recent years, the resulting impact on retirement plans, and
the legislative changes being considered by Congress, a followup review of trends noted in this
report will be needed to show the full impact of the recent economic downturn, resulting
recovery, and changes due to legislation.




263
  Statement by Chairman, Board of Governors of the Federal Reserve System, before the Joint Economic
Committee, U.S. Congress (dated April 2010).
                                                                                                       Page 16
                                Statistical Trends in Retirement Plans




                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to identify retirement plan trends based on a wide range
of statistical indicators. To accomplish this objective, we:
I.     Analyzed data available from IRS files, including information regarding individual
       retirement plan contributions, distributions, early withdrawals, and taxes on early
       withdrawals.
II.    Obtained and analyzed data available from non-IRS sources within the Federal
       Government, including the Department of Labor, the PBGC, the Census Bureau, and the
       Government Accountability Office.
III.   Identified key high-level trends based on data gathered in Steps I and II.
       A. Analyzed data from IRS and non-IRS sources to determine trends in
          employer-sponsored retirement plans (participation, contributions, disbursements, and
          total assets).
       B. Analyzed tax return data from IRS sources to determine trends in individual
          retirement plans.
       C. Evaluated trends associated with the economic risk that retirement plans have
          experienced by analyzing PBGC information to determine the number of retirement
          plans and associated plan participants insured by the PBGC, number of plans that the
          PBGC took over, and amount of claims paid from terminated plans.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. Because the scope of this audit
focused on the development of statistical trends from IRS and non-IRS data, we did not perform
a full assessment of internal controls. Within the context of our audit objective, we determined
that internal controls related to the reliability of information were relevant. We evaluated these
controls by performing general validation tests to provide reasonable assurance that IRS data
were accurate, complete, and reliable. Because we did not have access to source data or systems
producing the data, we did not independently verify data we obtained from non-IRS sources.



                                                                                          Page 17
                             Statistical Trends in Retirement Plans




                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Andrew J. Burns, Senior Auditor
Stephen A. Elix, Auditor




                                                                                  Page 18
                             Statistical Trends in Retirement Plans




                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 19
                                      Statistical Trends in Retirement Plans




                                                                                                Appendix IV

                   Selected Information Regarding
                Federal Government Retirement Plans

Civil Service Retirement System
The Civil Service Retirement Act 1 established the Civil Service Retirement System for certain
Federal employees. The Civil Service Retirement System is a defined benefit, contributory
retirement system whereby employees contribute a percentage of their pay and their employing
agency matches the employees’ contribution. Future benefits are based on employees’ years of
service and earnings over the course of their careers. In general, employees must wait until they
reach age 55 to receive full benefits and could be subject to a reduced annuity if they retire at an
earlier age. 2
Federal Employees Retirement System
The Civil Service Retirement System was replaced by the Federal Employees Retirement System
for Federal employees who began their Federal careers after January 1, 1984. 3 The Federal
Employees Retirement System is a defined contribution plan that provides benefits from
three different sources.
    •   A basic benefit which is based on employee contributions and matching contributions by
        the agency. This is similar to the defined benefit aspect of the Civil Service Retirement
        System but at a much lower amount.
    •   Social Security.
    •   The Thrift Savings Plan, a tax deferred retirement savings and investment plan for which
        retirement income depends on contributions made by employees or their agencies during
        their working years.
Two of the three parts of the Federal Employees Retirement System (Social Security and the
Thrift Savings Plan) are “portable” as employees can take those funds to their next job if they
leave the Federal Government before retirement.


1
  5 United States Code Section (§) 8331-8351, P.L. 77-411, § 7, 56 Stat. 13, 16.
2
  In some cases, employees can retire prior to age 55 without being subject to an annuity reduction. These include
employees who retire because of a disability or under special provisions for law enforcement officers.
3
  The Federal Employees Retirement System program did not become effective until January 1, 1987. An interim
plan was in effect from January 1, 1984, through December 1, 1986, and any employee hired during that period
received credit for all service toward the Federal Employees Retirement System.
                                                                                                           Page 20
                                                         Statistical Trends in Retirement Plans




As with private-sector employer-sponsored retirement plans, there has been a marked shift in the
number of employees covered under defined benefit and defined contribution plans. Figure 1
shows the shift from the Civil Service Retirement System to the Federal Employees Retirement
System. Between FYs 1987 and 2007, the total number of employees under the Civil Service
Retirement System dropped 1.5 million (35 percent) while employees covered by the Federal
Employees Retirement System increased 1.6 million (200 percent).
                                    Figure 1: Federal Employees Retirement Plans Participation
                                                        (FYs 1987–2007)
                                              5
         Federal Employees Retirement Plans




                                                  4.3
                                                                     4.0
                                              4
                                                                                                                 3.6
                Participants (millions)




                                                                                   3.5            3.5
                                                  3.8                3.6
                                                                                   3.4                           2.8
                                              3
                                                                                                  3.2

                                                                                                                  2.4
                                              2
                                                                                                  2.0
                                                                     1.4           1.7
                                              1
                                                   0.8
                                              0
                                                  1987           1992             1997           2002            2007
                                                                               Fiscal Year

                                   Civil Service Retirement System         Federal Employees Retirement System          Military

    Source: EBRI Databook on Employee Benefits, Federal Government Retirement Plans (Employee
    Benefit Research Institute, dated January 2009).

Figure 2 shows the correspondingly large increase in Federal Employees Retirement System
assets over the last 20 years as new employees covered by the Federal Employees Retirement
System have entered Federal employment. For example, while Civil Service Retirement System
assets increased $253 billion (145 percent) during this period, assets for the Federal Employees
Retirement System increased at a far more accelerated rate from $4 billion to $282 billion
(6,950 percent).




                                                                                                                            Page 21
                                                                     Statistical Trends in Retirement Plans




        Figure 2: Federal Employees Retirement Plans Assets (FYs 1987–2007)
                                                 $500

                                                                                                           $417            $428
     Federal Employees Retirement Plans Assets




                                                 $400
                                                                                            $344

                                                                                                                           $282
                                                 $300
                                                                           $256
                      (billions)




                                                              $175                                          $177
                                                 $200
                                                                                           $143                            $218
                                                                             $106
                                                                                                           $162
                                                 $100
                                                               $39
                                                                              $32           $83
                                                               $4
                                                   $-
                                                             1987             1992          1997            2002           2007

                                                                                         Fiscal Year

                                                 Civil Service Retirement System     Federal Employees Retirement System     Military

  Source: EBRI Databook on Employee Benefits, Federal Government Retirement Plans (Employee
  Benefit Research Institute, dated January 2009).

Both Civil Service Retirement System and Federal Employees Retirement System employees
may contribute to the Thrift Savings Plan; however, Federal Employees Retirement System
employees can receive matching funds from the Federal Government for up to 5 percent of their
salary. For Federal employees under the Federal Employees Retirement System, the Thrift
Savings Plan is an integral part of their overall retirement savings. Figure 3 shows there was
significant growth in participation, contributions, and total assets between FYs 1987 and 2007.
In large part, the increases in contributions occurred over the past 10 years as the number of
participants increased substantially.




                                                                                                                                  Page 22
                                      Statistical Trends in Retirement Plans




Figure 3: Participation, Contributions, Total Benefits Paid, and Net Assets for the
                       Thrift Savings Plan (FYs 1987–2007)

                                                                                                   Percentage
                                                                                                    Increase
     Statistic     FY 1987        FY 1992         FY 1997         FY 2002         FY 2007        (FYs 1987–2007)
    Total
Participation        0.99           1.92             2.30            2.96           3.80              283.8%
(in millions)
  Employee
Contributions       $29.5          $109.4          $191.1          $381.2          $702.9            2,282.7%
 (in millions)
  Employer
Contributions       $10.6           $51.0           $87.7          $141.9          $220.6            1,981.1%
 (in millions)
Total Benefits
  Paid (in                                           $1.0            $2.4           $7.9
 billions)41
Net Assets (in
                     $1.1           $16.2           $60.7          $102.3          $231.6           20,954.5%
  billions)

Source: Thrift Savings Plan Financial Statements, Federal Retirement Thrift Investment Board.




41
  From the inception of the Thrift Savings Plan on April 1, 1987, through the end of FY 1992, benefits paid were
less than $0.5 billion.
                                                                                                          Page 23
                                                         Statistical Trends in Retirement Plans




                                                                                                                       Appendix V

                                      Detailed Charts of Statistical Information

The following charts are included to provide additional trends regarding employer-sponsored and
individual retirement plans.

Total Number of Employer-Sponsored Retirement Plans and Types of Plans
During the 30-year period of CYs 1977 through 2007, there was a major shift from defined
benefit plans to defined contribution plans. As shown in Figures 1 and 2, the increase in the
number of plans is almost exclusively associated with defined contribution plans. For example,
the number of defined benefit plans decreased by nearly 73,000 (59.7 percent) during this period
while the number of defined contribution plans increased by nearly 378,000 (134.5 percent).
Since CY 1997, defined contribution plans have accounted for more than 90 percent of all
employer-sponsored retirement plans in existence.
                                     Figure 1: Total Number of Employer-Sponsored Retirement Plans
                                                        by Type (CYs 1977–2007)

                                  800,000
                                                                     733,029                      720,041    733,312      707,787
                                                                                    708,335
 Total Employer-Sponsored Plans




                                                      594,456
                                                                                                   660,542    685,943
                                  600,000                                                                                  658,805
                                                                                    619,714

                                                                     569,964
                                            402,627

                                  400,000
                                                      419,458


                                            280,972
                                                                      163,065
                                  200,000

                                                      174,998                        88,621
                                                                                                   59,499     47,369       48,982
                                            121,655

                                       0
                                            1977      1982           1987           1992          1997       2002         2007
                                                                                Calendar Year
                                                      Defined Benefit Plan       Defined Contribution Plan   Total

Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension
Plan Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”



                                                                                                                             Page 24
                                      Statistical Trends in Retirement Plans




    Figure 2: Percentage of Defined Benefit Plans and Defined Contribution Plans to
             Total Employer-Sponsored Retirement Plans (CYs 1977–2007)

                           100%
                                                                                            91.7%         93.5%   93.1%
                                                                              87.5%
                           80%
                                                               77.8%
                                   69.8%       70.6%
    Employer-Sponsored     60%
     Plans: Percentage
    Defined Benefit and
    Defined Contribution   40%
                                                               22.2%
                                  30.2%        29.4%
                           20%                                                12.5%
                                                                                             8.3%          6.5%   6.9%

                            0%
                                  1977         1982           1987            1992          1997         2002     2007
                                                                       Calendar Year

                                                       Defined Benefit Plan           Defined Contribution Plan

    Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension
    Plan Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

Individual Retirement Plans: Participation and Additional Taxes on Withdrawals
(TYs 2004–2007)
The number of participants in individual retirement plans increased 1.8 percent between
TYs 2004 and 2007, from 14.88 million to 15.14 million. 1 As shown in Figure 3, participation
increased for two types of individual retirement plans and decreased for two others.
       •   Roth IRA participation increased by 3.6 percent, from approximately 6.6 million in
           TY 2004 to approximately 6.9 million in TY 2007.
       •   Traditional IRA participation decreased by 2.2 percent, from approximately 5.4 million
           in TY 2004 to approximately 5.3 million in TY 2007.
       •   Simplified Employee Pension IRA participation decreased by 4.9 percent, from
           approximately 1.6 million in TY 2004 to approximately 1.5 million in TY 2007.
       •   SIMPLE participation increased by 12.4 percent, from approximately 2.0 million in
           TY 2004 to approximately 2.2 million in TY 2007.



1
 Total participants for the specific types of individual retirement arrangements will exceed the total number of
participants for individual retirement plans because some taxpayers participated in more than one type of plan.
                                                                                                                   Page 25
                                                                  Statistical Trends in Retirement Plans




                                             Figure 3: Total Number of Participants (in Thousands) in
                                               Individual Retirement Plans by Type (TYs 2004–2007)


                                     8,000

                                                                         6,789                     6,808
Total IRA Participants (thousands)




                                             6,629                                                                           6,865


                                     6,000           5,423                    5,401                        5,360                     5,305




                                     4,000



                                                                                        2,072                      2,148                         2,214
                                                             1,970
                                     2,000
                                                         1,602                      1,595                      1,562                         1,524




                                        0
                                               Tax Year 2004               Tax Year 2005             Tax Year 2006             Tax Year 2007

                                                       Roth IRA   Traditional IRA   Simplified Employee Pension IRA    SIMPLE Plan

Source: IRA Contribution Information (Form 5498) submitted by third-party financial institutions to the IRS.

Employer-Sponsored Retirement Plan Assets, Disbursements, and Contributions
Overall, the value of retirement plan assets increased each year from CY 1977 through CY 2007,
with defined contribution plans increasing at a higher rate than defined benefit plans. Figure 4
shows employer-sponsored retirement plans asset values as a whole have increased nearly
1,800 percent (from $325 billion in CY 1977 to $6.1 trillion in CY 2007). Due to increased
participation and earnings received on participants’ investments, defined contribution plans asset
values increased 3,665 percent (from $91 billion in CY 1977 to $3.4 trillion in CY 2007) and
defined benefit plans asset values increased 1,033 percent (from $234 billion to $2.6 trillion).




                                                                                                                                        Page 26
                                                Statistical Trends in Retirement Plans




                                  Figure 4: Employer-Sponsored Retirement Plans
                                 Asset Values (in Millions) by Type (CYs 1977–2007)
                               $7,000,000

                               $6,000,000

                               $5,000,000
     Total Assets (millions)




                               $4,000,000


                               $3,000,000


                               $2,000,000

                               $1,000,000


                                      $0
                                            Calendar    Calendar    Calendar    Calendar    Calendar    Calendar    Calendar
                                            Year 1977   Year 1982   Year 1987   Year 1992   Year 1997   Year 2002   Year 2007
         Defined Benefit Plan               $233,609    $553,419    $877,269    $1,146,798 $1,735,604 $1,665,657 $2,646,603
         Defined Contribution Plan           $91,465    $235,567    $525,219    $947,289    $1,818,152 $1,951,596 $3,443,870
         Total                              $325,074    $788,986    $1,402,488 $2,094,087 $3,553,756 $3,617,253 $6,090,473

Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension
Plan Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

As shown in Figure 5, the pattern of disbursements from CY 1977 through CY 2007 illustrates
the shift from defined benefit plans to defined contribution plans. For example, in CY 1977,
defined benefit plans disbursed more funds than defined contribution plans. Although defined
benefit plan disbursements increased 941 percent between CYs 1977 and 2007 (from $15 billion
to $159 billion), defined contribution plan disbursements increased more than 3,700 percent
(from $8 billion to $294 billion) during this same period.




                                                                                                                      Page 27
                                                                            Statistical Trends in Retirement Plans




   Figure 5: Employer-Sponsored Retirement Plan Disbursements (in Millions)
                          by Type (CYs 1977–2007)
                                                            $500,000
        Employer-Sponsored Retirement Plans Disbursements




                                                            $400,000



                                                            $300,000
                            (millions)




                                                            $200,000



                                                            $100,000



                                                                 $0
                                                                       Calendar    Calendar    Calendar    Calendar    Calendar    Calendar    Calendar
                                                                       Year 1977   Year 1982   Year 1987   Year 1992   Year 1997   Year 2002   Year 2007

       Defined Benefit Plan                                            $15,249     $33,875     $66,241     $77,853     $97,213     $135,824    $158,741
       Defined Contribution Plan                                        $7,702     $21,432     $56,013     $74,588     $135,266    $178,740    $294,105
       Total                                                           $22,951     $55,307     $122,254    $152,441    $232,479    $314,564    $452,846

 Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension Plan
 Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

Figure 6 shows that, from CY 1977 through CY 2007, total contributions to employer-sponsored
retirement plans increased $321 billion (683 percent), from $47 billion to $368 billion. This is
mostly attributable to defined contribution plans, for which contributions increased $284 billion
(nearly 1,800 percent). In contrast, contributions for defined benefit plans increased only
$37 billion (119 percent) during this same period.




                                                                                                                                                 Page 28
                                         Statistical Trends in Retirement Plans




       Figure 6: Employer-Sponsored Retirement Plan Contributions (in Millions)
                             by Type (CYs 1977–2007)
                          $400,000



                          $300,000

    Employer-Sponsored
     Retirement Plans
                       $200,000
       Contributions
         (millions)

                          $100,000



                                  $0
                                       Calendar Calendar Calendar Calendar Calendar Calendar Calendar
                                       Year 1977 Year 1982 Year 1987 Year 1992 Year 1997 Year 2002 Year 2007

           Defined Benefit Plan        $31,197   $48,438    $29,793   $35,174    $29,862    $89,212    $68,310
           Defined Contribution Plan   $15,864   $31,064    $62,277   $93,621    $148,078   $209,653   $299,825
           Total                       $47,061   $79,502    $92,070   $128,795   $177,940   $298,865   $368,135

    Source: Department of Labor, Employee Benefits Security Administration, January 2010 “Private Pension
    Plan Bulletin” and February 2009 “Private Pension Plan Bulletin Historical Tables and Graphs.”

Early Withdrawals From Employer-Sponsored and Individual Retirement Plans
The Internal Revenue Code allows participants in defined contribution plans and taxpayers who
have established IRAs to make withdrawals from their accrued retirement savings before
retirement under certain circumstances. Early withdrawals can result in a permanent loss of
retirement savings. The primary reasons for early withdrawals include:
       •    Failing to convert retirement savings from an employer-sponsored plan into another
            retirement plan as a result of a job separation.
       •    Hardship withdrawals. 2
Taxpayers who withdraw funds early 3 from accrued retirement savings are generally required to
report the funds as income and are subject to a penalty for early withdrawal of their retirement
savings. The early withdrawal is reported on an Additional Taxes on Qualified Plans (Including

2
  Examples of hardship withdrawals include expenses for higher education or up to $10,000 toward the purchase of a
first home.
3
  A withdrawal is considered to be early if made prior to age 59½.
                                                                                                        Page 29
                                      Statistical Trends in Retirement Plans




IRAs) and Other Tax-Favored Accounts (Form 5329). Figure 7 provides a breakdown of data
from Forms 5329 that were processed from PYs 2006 through 2009. Specifically, it shows the
number of taxpayers who withdrew funds prior to retirement and the amount of additional tax
that was paid as a result of the early withdrawal. We also provide a more detailed breakdown
based on the age of the primary taxpayer listed on the U.S. Individual Income Tax Return
(Form 1040). 4
    Figure 7: Early Withdrawal of Individual Retirement Plan Savings by Age of
                        Primary Taxpayer (PYs 2006 - 2009)
                                      Number of                 Total Additional          Average
                PY 5             Taxpayers Reporting             Tax on Early           Additional Tax
                                  Early Withdrawals 6            Withdrawals            per Taxpayer
            2006 Total                           4,800,689          $3,905,322,141             $813
           <21 years old                            29,880              $3,247,266             $109
          21-30 years old                          749,792            $248,660,506             $332
          31-40 years old                        1,361,859            $958,850,978             $704
          41-50 years old                        1,531,790          $1,483,375,573             $968
          51-60 years old                        1,020,695          $1,132,353,040            $1,109
           >60 years old                           106,673             $78,834,778             $739

            2007 Total                           5,050,786          $4,345,780,992             $860
           <21 years old                            36,569              $3,754,582             $103
          21-30 years old                          822,937            $269,512,524             $328
          31-40 years old                        1,404,215          $1,058,693,330             $754
          41-50 years old                        1,588,131          $1,649,768,010            $1,039
          51-60 years old                        1,082,941          $1,276,399,475            $1,179
           >60 years old                           115,993             $87,653,071             $756

            2008 Total                           5,472,551          $5,035,824,134             $920
           <21 years old                            42,550              $4,378,007             $103
          21-30 years old                          892,400            $303,366,224             $340
          31-40 years old                        1,501,050          $1,216,088,741             $810
          41-50 years old                        1,727,108          $1,926,922,326            $1,116
          51-60 years old                        1,190,889          $1,495,416,858            $1,256
           >60 years old                           118,554             $89,651,978             $756




4
  Data used to determine a taxpayer’s age were taken from the IRS Individual Master File, the IRS database that
maintains transactions or records of individual tax accounts.
5
  The year in which tax returns and other tax data are processed.
6
  The total number of taxpayers and additional tax do not match the data in Figure 8 on page 14 of this report
because some accounts analyzed did not have date of birth information available and, therefore, were not included in
Figure 7.
                                                                                                          Page 30
                             Statistical Trends in Retirement Plans




                             Number of                Total Additional         Average
         PY 5           Taxpayers Reporting            Tax on Early          Additional Tax
                         Early Withdrawals 6           Withdrawals           per Taxpayer
     2009 Total                         5,694,359         $5,153,287,453           $905
    <21 years old                          42,781             $4,029,879            $94
   21-30 years old                        915,089           $276,285,588           $302
   31-40 years old                      1,516,874         $1,158,867,948           $764
   41-50 years old                      1,789,424         $1,969,443,434          $1,101
   51-60 years old                      1,298,540         $1,648,096,074          $1,269
    >60 years old                         131,651            $96,564,530           $733

  2006 to 2009 Total                   21,018,385       $18,440,214,720             $877
Source: Additional Taxes on Qualified Plans (Including IRAs) and Other Tax-Favored Accounts
(Form 5329) processed during PYs 2006 through 2009.




                                                                                              Page 31
